<html>
<title> - BRIEFING ON IMPROVING THE ENDANGERED SPECIES ACT: PERSPECTIVES FROM THE FISH AND WILDLIFE SERVICE AND STATE GOVERNORS</title>
<body><pre>[Senate Hearing 114-189]
[From the U.S. Government Publishing Office]








                                                        S. Hrg. 114-189

BRIEFING ON IMPROVING THE ENDANGERED SPECIES ACT: PERSPECTIVES FROM THE 
             FISH AND WILDLIFE SERVICE AND STATE GOVERNORS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON FISHERIES, 
                          WATER, AND WILDLIFE

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 29, 2015

                               __________

  Printed for the use of the Committee on Environment and Public Works


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://www.gpo.gov/fdsys
                               __________

                       U.S. GOVERNMENT PUBLISHING OFFICE 

98-669 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
















               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
                              ----------                              

             Subcommittee on Fisheries, Water, and Wildlife

                     DAN SULLIVAN, Alaska, Chairman
JOHN BARRASSO, Wyoming               SHELDON WHITEHOUSE, Rhode Island
SHELLEY MOORE CAPITO, West Virginia  THOMAS R. CARPER, Delaware
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
JEFF SESSIONS, Alabama               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
JAMES M. INHOFE, Oklahoma (ex        BARBARA BOXER, California (ex 
    officio)                             officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 29, 2015
                           OPENING STATEMENTS

Enzi, Hon. Mike B., U.S. Senator from the State of Wyoming.......     1
Daines, Hon. Steve, U.S. Senator from the State of Montana.......     2
Tester, Hon. Jon, U.S. Senator from the State of Montana.........     3
Sullivan, Hon. Dan, U.S. Senator from the State of Alaska........     4
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................     6

                               WITNESSES

Ashe, Dan, Director, U.S. Fish and Wildlife Service..............     6
    Prepared statement...........................................     9
    Responses to additional questions from Senator Inhofe........    15
Mead, Matt, Governor, State of Wyoming, Chairman, Western 
  Governors' Association.........................................    34
    Prepared statement...........................................    38
    Responses to additional questions from Senator Inhofe........    73
Bullock, Steve, Governor, State of Montana, Vice Chairman, 
  Western Governors' Association.................................    76
    Prepared statement...........................................    78
    Responses to additional questions from Senator Inhofe........    88

 
BRIEFING ON IMPROVING THE ENDANGERED SPECIES ACT: PERSPECTIVES FROM THE 
             FISH AND WILDLIFE SERVICE AND STATE GOVERNORS

                              ----------                              


                      TUESDAY, SEPTEMBER 29, 2015

                               U.S. Senate,
         Committee on Environment and Public Works,
            Subcommittee on Fisheries, Water, and Wildlife,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:04 p.m. in room 
406, Dirksen Senate Office Building, Hon. Dan Sullivan 
(chairman of the subcommittee) presiding.
    Present: Senators Sullivan, Barrasso, Capito, Boozman, 
Fischer, Rounds, and Inhofe.
    Also present: Senators Enzi, Daines, and Tester.
    Senator Sullivan. The Subcommittee on Fisheries, Water, and 
Wildlife will now come to order.
    We have a couple special guests here who are going to help 
us open this hearing, Senators Enzi, Tester and Daines. So I 
welcome my colleagues to make a few opening statements before 
Director Ashe and some of our Western Governors assume the 
dais.
    Senator Enzi.

            OPENING STATEMENT OF HON. MIKE B. ENZI, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Enzi. Thank you, Mr. Chairman.
    It is a great honor that I join with Senator Barrasso this 
afternoon to introduce Wyoming Governor Matt Mead. Governor 
Mead presented earlier today before the Senate Commerce 
Committee, so I guarantee that he is warmed up for your 
questions. He has a great deal of expertise to share with the 
subcommittee on wildlife management and the need to improve the 
Endangered Species Act.
    He can speak to great detail about the efforts the Western 
States went through with the recent decision on the greater 
sage-grouse. Governor Mead can also speak to Wyoming's 
successes with species recovery, including the black-footed 
ferret, which is particularly interesting because Wyoming is 
the first State to save an extinct species. It had already been 
declared extinct. We found a few of them in Wyoming. Wyoming 
built a special facility, captured the remaining ones, and did 
a special breeding program to get as much diversity as 
possible, and those are now in prairie dog towns throughout the 
West.
    He has also been very involved in the wolf situation. We 
had an experimental population put in Yellowstone Park which 
has expanded greatly, and the State, out of concern for its 
wildlife and its agriculture, did a plan, and that plan got 
approved by Fish and Wildlife Service. Of course, then it was 
taken to court, and the decision of the judge is real 
interesting because she points out that while the Wyoming plan 
did what it was supposed to do, which is to increase the number 
of wolves and decrease the human and animal conflict, she 
didn't think the wording was strict enough. So it is in limbo 
at the moment.
    We have also been involved with grizzly bears, which are 
expanding into communities at the moment. So there needs to be 
some things done with it, and he is an expert on things that 
could be done.
    Now, I also applaud this committee's efforts to consider 
the merits of modernizing the Endangered Species Act. This is 
the second time I have appeared before the EPW Committee this 
year on the topic, and I am pleased that Chairman Inhofe is 
considering a wide variety of approaches. That includes S. 736, 
the State Tribal and Local Species Transparency and Recovery 
Act, which I introduced earlier this year to ensure that the 
Federal Government consider scientific data collected from 
State, local, and tribal authorities when making ESA 
determinations.
    As you are aware, Governor Mead will focus on endangered 
species as his initiative while serving as chairman of the 
Western Governors' Association. In addition to the current 
efforts in Congress, this initiative is an important step 
toward identifying how to turn the Endangered Species Act into 
a workable recovery program for our wildlife populations.
    I am pleased Governor Mead could join the subcommittee this 
afternoon, and I am looking forward to his suggestions on this 
important Act.
    Thank you, Mr. Chairman.
    Senator Sullivan. Thank you, Senator Enzi.
    Senator Daines.

            OPENING STATEMENT OF HON. STEVE DAINES, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Daines. Chairman Sullivan, Ranking Member 
Whitehouse, Chairman Inhofe, and Ranking Member Boxer, thank 
you for holding this important briefing today about the 
Endangered Species Act.
    I would also like to welcome our own Governor from Montana, 
Governor Steve Bullock, to our Nation's capital, and I thank 
you for making the trip out and for testifying here today.
    There aren't many Federal laws that impact our great State 
more than the Endangered Species Act, with 18 species listed as 
threatened, endangered, or candidate species, and some for 
nearly 50 years.
    Our great State is known for its one-of-a-kind wildlife and 
also its bountiful agriculture and natural resources, and it is 
important that land management decisions take into 
consideration both wildlife habitat and responsible land use, 
because too often land management, especially on the Federal 
level, is impacted by litigation fueled by the Endangered 
Species Act. We see this most often in our national forests in 
Montana. Between 40 and 50 percent of timber volume has been 
halted by litigation in recent years.
    All the while the ESA has only recovered less than 2 
percent of the species that have been listed. These 
unacceptable results should compel reform. Though well 
intended, the ESA is like a 40-year-old ranch pickup: it once 
served a useful purpose, but it is in bad need of repair.
    As we think about wolves, as Senator Enzi just mentioned, I 
am grateful that Montana now manages wolves and wolf 
populations. It literally took an act of Congress to make that 
change. But now the people of Montana, State Fish, Wildlife and 
Parks, we manage wolf populations in Montana. In fact, I have 
my wolf tag for 2015 with me. Montanans can go down and buy a 
tag over the counter or online, because the people of Montana 
now are managing that wolf population. We know how to do it.
    One species that has had a lot of focus for many Montanans 
is the greater sage-grouse. Although we are happy with the 
recent unwarranted determination by the Fish and Wildlife 
Service, many Montanans remain concerned about the BLM's land 
use plans, and we certainly commend Governor Bullock and the 
Montana legislature for their work to launch Montana's greater 
sage-grouse conservation plan, an unprecedented effort between 
Montana land users and conservation groups.
    I look forward to our State plan being up and running this 
January, and I truly appreciate the committee for exploring how 
States can take the lead in the sage-grouse conservation.
    Thank you.
    Senator Sullivan. Senator Tester.

             OPENING STATEMENT OF HON. JON TESTER, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Tester. Well, thank you, Chairman Sullivan. It is 
great to be here today and it is an incredible opportunity for 
me to introduce my friend, the Governor of the State of 
Montana, Steve Bullock. Steve has been a friend and a reliable 
partner for bipartisanship in his time both when he served as 
attorney general with you, Senator Sullivan, and now as 
Governor. He knows that hard work is accomplished in the 
middle, and when we compromise, things get done.
    Montana is reaping those benefits. The State's economy is 
in good shape; balanced budget and $400 million in the bank in 
a rainy day fund, and Montana is striking the right balance 
between conservation and economic growth. Montana, under the 
Governor's leadership, has done great work to conserve species, 
to ensure that they don't become threatened in the first place. 
Two examples are the Arctic grayling and the sage-grouse.
    Steve is here to discuss the collaboration and the 
pragmatism that went into conserving habitat both from a 
government and from a private sector.
    Montana has leveraged Federal resources with its own 
funding in tools like the Candidate Conservation Agreements 
with private landowners to reduce areas of conflict and to find 
solutions with broad benefits, and that is how it should be. We 
should strengthen the State and Federal partnerships, and we 
also need to ensure that the intent of bedrock laws like the 
Endangered Species Act remains both a backstop and a catalyst 
for action.
    We almost missed our chance with the sage-grouse. The 
unprecedented effort from folks like Governor Bullock, from 
private landowners, from conservationists, from industry and 
governments at all level have protected a landscape that is 
fundamental to our Western way of life. In a sentence, 
collaboration on the ground works, as we have proven it here 
again.
    I want to thank you again, Mr. Chairman, and it is a 
pleasure to introduce the Governor of the great State of 
Montana, Steve Bullock.
    Senator Sullivan. Thank you, gentlemen, for your opening 
statements.
    I am now going to have Director Ashe assume the table.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
             U.S. SENATOR FROM THE STATE OF ALASKA

    Senator Sullivan. Good afternoon.
    As you have seen from our opening statements from my Senate 
colleagues, the purpose of the meeting today is to examine the 
Endangered Species Act and how it can be improved and updated 
for the 21st century. Today we are fortunate to have an 
impressive slate of witnesses: Director Ashe; two Governors who 
were just introduced, who I think can bring a lot to bear with 
regard to the importance of the States' involvement with regard 
to the Endangered Species Act.
    As Alaska's Senator, I want to make a point about something 
that happened yesterday that might not seem to relate to the 
ESA, but it does.
    We had an announcement in terms of offshore development 
where a large company, Shell, in terms of responsibly 
developing oil resources off the coast of Alaska, is pulling 
out, for now. There is a lot to that, but one thing that they 
certainly mentioned was the uncertainty in the Federal 
regulatory environment. This is a company that spent 7 years 
and $7 billion to try to get Federal permission to drill one 
exploration well in 100 feet of water. That kind of Federal 
permitting delays doesn't help anyone in our country.
    So I think a lot of people, a lot of Senators on both sides 
of the aisle, are looking at opportunities to make our 
regulatory system more efficient, timely, and certain, while 
balancing the needs, certainly, which we all agree to protect 
our species, but also to protect jobs and the private sector.
    So that is what we are going to look at today.
    The ESA was first enacted in 1973 and hasn't been 
modernized or comprehensively updated since 1988. Think about 
that. That is a long time for a statute of this importance.
    Like a lot of legislation passed many decades ago, it is in 
need of an update and modernization to, again, protect species, 
certainly, which is what it is focused on, but to balance other 
important issues that I think all of us would agree are 
necessary to consider.
    Too often, as my colleagues in the Senate have already 
mentioned, the ESA has been used and abused, more as a 
political weapon, more as a means to lock up land by litigants 
who sue under it, more as a means to be used as a land zoning 
device, as opposed to what it was initially, and I think with 
widespread agreement, focused on doing, which is protecting our 
species.
    Since its passage, the nearly 1600 domestic species that 
have been added to the endangered species list, less than 2 
percent, as Senator Daines mentioned, have recovered.
    There are those who do not agree that the ESA is in need of 
improvement, but recovering less than 2 percent of listed 
species is not good enough, and we must do better.
    Adding more and more species to the list shouldn't be the 
goal or the end of the story. The key is recovering species 
from population collapses. That should be the goal.
    We had a recent example in Alaska, where we worked with the 
Federal agencies to delist the eastern stock of the Steller sea 
lion, which had dramatically, by thousands, close to tens of 
thousands, recovered; and that was delisted, and we are proud 
of that fact in Alaska.
    But even more surprising is that many species listed on the 
ESA do not even have a published or recovery plan. So there is 
no plan, which, again, is part of the ESA.
    How can the agencies move forward recovering species if we 
don't have any idea or plan on how to do that?
    Many of the agencies have limited resources and are 
spending most of their resources not on these plans, but in 
court, in litigation, which has come to be synonymous with the 
Endangered Species Act.
    In May, at a full committee hearing, Director Ashe offered 
the following. He said, ``I do believe that the Endangered 
Species Act should be reauthorized, and I think there could be 
room for improvement of the law. I think it is possible to 
bring people of good will together and we could pass 
legislation that improves the law.'' In many ways, that was a 
genesis of this hearing.
    Similarly, as I believe we will see today, the bipartisan 
Western Governors' Association passed a resolution that states, 
``Western Governors believe the ESA can only be reauthorized 
through legislation developed in a consensus fashion that 
results in broad bipartisan support and means the intent of the 
Act.''
    In my experience, the ESA is often more of a geographic 
issue than a partisan issue, where Western Governors, Western 
AGs, regardless of party in the Western States, believe in the 
need and importance of reform. They also believe in the 
importance of more State involvement in the ESA and the ESA 
listing process. The ESA itself states that States shall be 
consulted. But oftentimes it is a very cursory consultation 
process, even though, as I think we will see today from some of 
our witnesses, the States often have better information and 
better knowledge of the species and how to recover and protect 
them than does the Federal Government.
    As Alaska's attorney general, I served with Governor 
Bullock, and we worked together, again, in a bipartisan way, 
many of us, to launch the Endangered Species Working Group of 
the Western Association of Attorneys General, again, a 
bipartisan group that was very focused on this important issue. 
We sought to achieve common ground, and we hope that part of 
today's hearing will have ideas and a way to move forward on 
that common ground.
    Working together, Congress can update, modernize, and 
reform the ESA to incorporate innovative solutions that result 
in increased species recovery and less impact to the economy, 
private property, and jobs throughout our country.
    I want to thank the witnesses again for being here. Look 
forward to discussing this important topic and exchanging ideas 
with all of them.
    Senator Inhofe. Mr. Chairman, I know you are going to get 
to the opening statement of Director Ashe. This is a 
subcommittee meeting, and I am not going to read an opening 
statement. I would like to submit one for the record, though, 
all right?
    Senator Sullivan. Without objection.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    I would like to start by thanking Senator Sullivan for 
putting this briefing together. I'd also like to thank our 
guests, Director Ashe, and Governor Mead and Governor Bullock. 
I appreciate your time and participation today so that we all 
can get a better understanding of the Endangered Species Act 
and how we can improve this legislation.
    The Endangered Species Act has been in the news often 
recently. Earlier this month, a Federal district judge held 
that the Fish and Wildlife Service did not fully evaluate 
ongoing conservation methods in its decision to list the lesser 
prairie chicken. This is a victory for State and local 
conservationists who know that they can positively impact 
species recovery and ecosystem management without the 
Washington bureaucrats.
    Then just last week the Fish and Wildlife Service announced 
that the greater sage-grouse is not in need of Federal 
protection under the Endangered Species Act. It appears, 
however, that the Administration will continue to control sage-
grouse habitat by greatly restricting land use, thereby 
removing State and local governments from the conservation 
process. I hope we are able to have a discussion today about 
the future of State conservation and how we can include more 
local efforts into the recovery of threatened and endangered 
species.
    Last time Director Ashe joined us for a hearing, we heard 
from six Senators about their legislation and examined eight 
different bills to reform the ESA. Director Ashe said that we 
``could pass legislation to improve the act.'' We also heard 
from other witnesses that the current one-size-fits-all 
approach does not work. The discussion today will build on that 
hearing with input from State Governors and an examination of 
the Service's proposal to change the listing process.
    I also look forward to hearing about the work the Western 
Governors' Association has done to address ESA overreach in 
their States. We are fortunate today to have both a Republican 
and a Democrat Governor talk about how current implementation 
of ESA works and what problems they have with it in their 
States. We must address the fact that the Service spends more 
time and resources fighting lawsuits and listing species than 
actually recovering and delisting species. If States and local 
conservationists had a larger role in the process, we could use 
our resources much more efficiently to ensure that our precious 
ecosystems continue to thrive.
    I hope to work with our Governors and the Service to 
develop a bipartisan legislative proposal to address these 
needs and to put the ESA back to work for species recovery. 
Again, I thank everyone for coming today, and I look forward to 
your testimonies.

    Senator Sullivan. Director Ashe, your opening statement, 
please.

STATEMENT OF DAN ASHE, DIRECTOR, U.S. FISH AND WILDLIFE SERVICE

    Mr. Ashe. Good afternoon, Mr. Chairman and committee 
members. It is always a pleasure to be here.
    The Endangered Species Act is among the Nation's and the 
world's most aspirational, important, and successful 
environmental laws. Think about what has happened since its 
enactment in 1973. World population has grown by more than 3 
and a half billion, nearly double. And here in the U.S. over 
100 million people have been added to our population, nearly a 
50 percent increase. And these people are more affluent. Real 
GDP in the U.S. has grown threefold since 1973, and per capita 
GDP has doubled in that same period.
    So we have more people and more people consuming more 
resources, which means, quite simply, that less resources are 
available to support the rest of what we call biological 
diversity. So we implement this law, facing the challenge of 
what many are calling the sixth mass extinction.
    But notwithstanding that, I believe that we have forged 
amazing success. Ninety-nine percent of listed species have 
been saved from extinction. Of the species that have been 
listed for more than 5 years, 90 percent are holding stable or 
increasing in population.
    During this Administration, I think that we have shown what 
is possible if we invest in Endangered Species Act success. We 
are incentivizing private conservation. Perhaps a seminal 
innovation of this Administration is our partnership with the 
United States Department of Agriculture Natural Resource 
Conservation Service, what we are calling Working Lands for 
Wildlife. Our success in Arctic grayling and lesser prairie-
chicken and New England cottontail and the greater sage-grouse, 
which we celebrated last week, are all rooted in this key 
collaboration to incentivize private land conservation, 
voluntary private land conservation.
    We are engaging the States. We have established a joint ESA 
task force between the Fish and Wildlife Service and the 
Association of Fish and Wildlife Agencies. We helped to form a 
five-State range-wide plan to support the conservation of the 
lesser prairie-chicken, relying on State-based authorities to 
achieve conservation. We have framed an incidental task 
authorization agreement with the State of Florida, the first of 
its kind.
    And with the greater sage-grouse effort, which I just 
mentioned, we worked for over a decade with the Western 
Association of Fish and Wildlife Agencies, deferring to their 
scientific expertise on the sage-grouse. We worked with the 
range States to develop a conservation objectives team report, 
which was the foundation for the not warranted determination 
which we reached. We did that with our State partners and we 
joined arm-in-arm with the Western Governors' Association to 
form a Federal-State joint task force to address the 
conservation needs of the greater sage-grouse, which was, 
again, foundational to our success.
    We are building collaborative science capacities in a 
landscape conservation cooperative network, and that network is 
driving an innovative southeastern conservation blueprint 
involving all of our State partners across the Southeast, 
designing a blueprint through which we will work cooperatively 
to avoid the need to list species in the future.
    We are recovering and delisting species at a record setting 
pace by strategically targeting our investments. We have 
recovered and delisted more species than any previous 
Administration, and continuing on this pace we will have 
recovered and delisted more species than all previous 
Administrations combined.
    Where we invest, we succeed.
    As a long-time friend and colleague, Don Berry said 
recently, in testimony before this committee, the Endangered 
Species Act is not broken, it is starved. The seminal 
improvement that I believe Congress could make would be to 
adequately and aggressively fund the law's implementation; 
Federal implementation, State implementation. When we do, it 
works. In fact, it works quite well.
    We saw it last week when we were together in Denver, and I 
was privileged to stand with Secretary Jewell, four Governors, 
two Democrat, two Republican, two of whom are testifying on the 
next panel, along with the National Audubon Society and a 
Nevada rancher.
    And I will close there by saying that that rancher, Dwayne 
Coombs, summed it up best when he said, this is good 
Government. Amen.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Ashe follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
        
    Senator Sullivan. Thank you, Director Ashe.
    I am going to ask a few questions right now in terms of the 
proposed rulemaking that you put forward earlier this year 
which seeks to add clarity and new requirements in the 
petitioning process. I actually think there are some good ideas 
in there.
    Why did the agency feel it was necessary to take the 
action? What was the genesis of that? And I would like you to 
respond more broadly. Former Secretary of the Interior 
Kempthorne once mentioned kind of famously that the ESA is 
perhaps the least flexible law Congress has ever enacted. Does 
the proposed rules relate to that statement by the former 
Secretary of the Interior?
    Mr. Ashe. I will come back to Secretary Kempthorne's 
statement. I think the reason that we are proposing changes to 
the petition process is we certainly, in the last decade or so, 
have seen a surgence in the numbers of petitions that we are 
receiving, including so-called mega-petitions, where we get 
dozens or even hundreds of species covered by one petition.
    So we have endeavored to strategically manage our workload, 
and so what we are proposing is to put more burden on 
petitioners. I believe firmly that the petition process is an 
important ingredient in the fabric of the Endangered Species 
Act. I also believe that petitioners should, and can, bear a 
greater burden in terms of providing a factual basis to support 
their petition, to provide us with more information, to do that 
not in a context when they are sending us one petition that 
covers dozens or hundreds of species.
    I believe that involving the States at that stage, again, 
will provide key information to us as we make those initial 
decisions about whether a petition is warranted.
    Senator Sullivan. Do you believe you have the statutory 
authority to make those changes to the petition requirement?
    Mr. Ashe. Yes, sir, we believe that we do, and we think 
that they are well founded, and we put them out for public 
comment, and we are getting vibrant comment on those proposals. 
But, again, I think that is key to making the law work better, 
as you have said. I think we all have a commitment to ensure 
that we are modernizing the law and we are innovating where we 
can innovate. And I think our petitioners, people who petition 
to list species as well as people who petition to delist 
species, should carry a bigger burden to help.
    Senator Sullivan. Thank you. I want to ask another question 
with regard to the States' involvement. As you know, the 
Endangered Species Act actually mentions the requirement of 
State consultation. In my experience as a former attorney 
general, I don't think it happens that well. Do you think there 
are reforms that we need to undertake statutorily that would 
either grant States the authority to approve of listings or 
other kinds of roles, whether it is States, whether it is 
tribes, whether it is other people in the States that are 
impacted by ESA listings? And also to be able to utilize the 
knowledge that States have. As you noted, many of the State 
agencies have as much knowledge or sometimes more than the 
Federal Government agencies, and traditional knowledge from 
tribes and other entities in States.
    Mr. Ashe. I think that we can and are taking steps to 
engage our State partners. I would draw the line. I think 
decisions have to be made, and these are challenging decisions, 
and I don't believe that decisionmaking authority can be ceded 
or shared with the States.
    Senator Sullivan. Why is that? Let me give you a 
hypothetical. What if you are in a State where there is a 
species that there is a potential designation, and that species 
does not exist in another State? So one State, one species, one 
Federal Government. Why couldn't you see the State having the 
authority to list or have to approve with the Federal 
Government a listing decision? What would be problematic with 
that?
    Mr. Ashe. States have authorities to list species.
    Senator Sullivan. I am talking about in conjunction with 
you under Federal law.
    Mr. Ashe. I think that the Endangered Species Act has, at 
its heart, the commitment to look at the science, and the 
science only, with respect to the listing of a species, and 
these are challenging decisions. I think we can gain knowledge 
from State perspectives, and I think we have shown a commitment 
to a partnership with States and involving them in these 
decisions, as we have done with the sage-grouse.
    But even with regard to a species in a single State, say 
manatee in the State of Florida, these are decisions that are 
about the exercise of Federal authority and they belong, in my 
view, with a Federal official. That doesn't mean that States 
cannot and should not add value to that decision; they should 
and they can, and we can take steps, I think, to enrich that 
partnership with States. But this is inherently a Federal 
decision about the exercise of a Federal law and that key 
decision I think belongs with the Federal Government.
    Senator Sullivan. Well, just to be clear, it is about 
Federal authority because Congress granted Federal agencies to 
make those decisions.
    Mr. Ashe. Yes, sir.
    Senator Sullivan. Congress could also grant States the 
authority to make those decisions. So it depends on what is in 
the statute, who has the authority.
    Mr. Ashe. Sure.
    Senator Sullivan. Mr. Chairman.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, let me say I can remember back during 
confirmation time I was interested in your coming out, really 
taking a look at this partnership plan that we have done in the 
State of Oklahoma. You did that. You had actually, I think, a 
hearing in Edmund and one in Woodward, I think.
    Mr. Ashe. Yes.
    Senator Inhofe. And I tell you I appreciated that very 
much.
    Now, you mentioned the lesser prairie chicken. You know, we 
have tried to approach this, along with the greater sage-grouse 
and all that. In fact, we even had that on the House version of 
the Senate Armed Services bill, which I think we are going to 
find is not there any longer. But, nonetheless, it shows the 
efforts that we go to.
    What is interesting is, and I don't say this in a way where 
I am talking about just the current Administration, but it has 
always been this problem. You mentioned you may have delisted 
or downgraded, I am not sure, you said the largest number, I 
guess, of any Administration.
    Mr. Ashe. Any Administration.
    Senator Inhofe. But that is 16 out of 1600, right?
    Mr. Ashe. That is correct. I think, Senator, recovery is a 
long-term endeavor.
    Senator Inhofe. OK, that is what I want to get to. Why is 
it a long-term endeavor? What needs to be done? Because I have 
a hard time explaining this to people, particularly our five-
State plan. That was well put together with five States, and I 
think you would agree they did a great job, didn't they?
    Mr. Ashe. I do agree.
    Senator Inhofe. And they came out with recommendations.
    Mr. Ashe. And I think what we did to honor that is, to be 
honest, Senator, without that five-State range-wide plan, our 
decision on lesser prairie chicken would have likely been 
endangered. So what we were able to do with a threatened 
listing is now defer to State-based regulations. So with the 
lesser prairie chicken, the Fish and Wildlife Service has not 
written a single biological opinion, has not needed to issue a 
single permit. The people of Oklahoma and Kansas and Texas and 
New Mexico and Colorado are working with their State 
governments to undertake their activities and to achieve 
conservation for the lesser prairie chicken. So I think we have 
achieved a success there, even though we had to list it.
    Senator Inhofe. OK, now, you had a choice, though, didn't 
you? You could have either listed it as endangered, as 
threatened, or maybe a third choice, not listing it at all.
    Mr. Ashe. Correct.
    Senator Inhofe. Is that right?
    Mr. Ashe. That is correct.
    Senator Inhofe. All right. And how much was the five-State 
plan taken into consideration that led you to the conclusion 
that it should be listed as threatened?
    Mr. Ashe. I think that was the dispositive point in that 
discussion, because we had a State plan that we were confident 
would achieve conservation, and we have seen great results 
since that listing determination; population increases, I 
believe, of up to 25 percent. So I think we are justified in 
having that confidence in that range-wide plan and, like I 
said, without that plan the result could likely have been an 
endangered listing with less flexibility.
    And I think that gets back to Mr. Sullivan's point. I have 
the utmost respect for former Secretary Kempthorne, but I 
believe the flexibility of the Endangered Species Act is there 
when you look for it and you work for it, and I think we have 
shown that, again, during this Administration. We have employed 
the flexibilities of the law that led us to work with ranchers 
in the Big Hole of Montana and get to a not-warranted 
determination for the Arctic grayling. We have worked with 
timber lot owners in New England to get to a not-warranted 
determination for the New England cottontail.
    Senator Inhofe. OK. No, I understand that, but this is the 
problem I have. Every time we come up with something, and right 
now I am talking about the lesser prairie chicken, we go 
through all this effort to get it done. And let's just say that 
you agree with it. Not in that case, because it was not listed, 
so you listed it. But let's say from this point on it is now 
listed as threatened. What are the obstacles? Why does it take 
a lifetime to get this stuff off? Why is it that we can boast 
of the great job that we have done in delisting some 16 out of 
1600? It is kind of hard for me to go back to Oklahoma and talk 
about that as a success story. What obstacles are out there?
    Mr. Ashe. I think the obstacles are pretty clearly 
resources to do the job. To drive recovery for a species, take 
grizzly bear, for instance, it was mentioned earlier, it took 
this country more than two centuries to whittle a bear that 
once roamed pretty much the entire lower 48, to whittle it down 
to a few dozen that remained existent in the greater 
Yellowstone ecosystem. For us then to fight back to recovery 
has been a 30-year endeavor, but we are on the verge of 
proposing a delisting for the Yellowstone population of the 
grizzly bear. But it takes hard work; it takes resources; it 
takes effort over a sustained period of time.
    For species that are habitat limited, we have to reform 
their habitat. So the red-cockaded woodpecker in the 
Southeastern United States, we have launched another expansive 
partnership to rebuild its habitat. It took centuries to 
eliminate that habitat from the Southeastern United States.
    Senator Inhofe. But we are not talking about grizzly bears 
now, or at least I am not. What about a burrowing beetle? You 
don't have to recreate habitat for a burrowing beetle. It is 
certainly not going to take two centuries to do.
    My time has expired, but I want to get into this where we 
can come up with some way to change the law some way that we 
can actually get rid of some of these so it doesn't take all 
the resources that you are talking about. That is just my 
feeling.
    Mr. Ashe. Thank you, Senator.
    Senator Inhofe. Thank you, Mr. Chairman.
    Senator Sullivan. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Thank you, Mr. Director. You haven't mentioned my species 
yet, but I bet you can guess. It is the northern long-eared 
bat.
    Mr. Ashe. All right.
    Senator Capito. As you know, it has been listed as 
threatened, as opposed to being endangered, but it is really 
causing a lot of issues with a lot of various industries 
throughout the State of West Virginia. I think some period of 
time you are not allowed to move forward for 6 months out of an 
entire year while they are in their mating season, I think. But 
my understanding, and you and I talked about this, is that the 
white-nose syndrome, which is a disease, is really what is the 
predominant threat for this bat, and the problem for us is the 
sheer size of the habitat for the bat. It stretches from 
Louisiana to Maine, from Montana to New Jersey. So I guess 
where are we with this in terms of distinguishing between a 
disease that is taking a species down and then trying to 
preserve where maybe nature is taking over? I don't know. What 
is your response to that?
    Mr. Ashe. So thank you for recognizing that. White-nose 
syndrome is an exotic fungus that was imported to the United 
States. It is devastating bat populations nationwide, the 
northern long-eared bat being one that is particularly 
susceptible to the disease. There is no doubt that the 
existence of the species is threatened, at least. So I think 
our initial determination on that was threatened, and what we 
did was we provided a special rule, a section 40 rule, which is 
one of the great flexibilities in the Endangered Species Act. 
We use that to tailor restrictions in the law.
    We published an interim final rule, because we acknowledged 
at that point that there was probably still more for us to 
learn, so we have been working during that time period, again, 
a flexibility in the law to publish an interim final, go out 
for further comment, which we have done, and we will be here, 
before the end of the year, coming out with a final rule that 
will provide additional flexibility.
    We agree with you that the long-eared bat is not habitat-
limited, so our implementation of protections under the 
Endangered Species Act should not impose substantial 
restrictions on the use or development of habitat, because the 
species is not habitat-limited. But there are key life stages 
that we need to protect, like hibernacula and, to the extent 
that we know of their existence, roosting trees. So the species 
is in great decline. We need to protect, as much as we can, 
sensitive life stages, but we can do that with minimal 
restrictions, very minimal.
    Senator Capito. OK, let me ask you a further question. If 
an industry is trying to move on and has a habitat, I may not 
use the correct term, but a habitat preservation plan that 
comes before Fish and Wildlife, are you under any deadlines of 
when you have to issue an opinion on whether that habitat plan 
meets muster? Is it a 60-day limit or is it a 90-day limit, or 
is it unlimited? Because this is a problem with the response 
time.
    Mr. Ashe. When we do consultations with a Federal agency 
that might be issuing a permit or providing assistance, we have 
time limitations.
    Senator Capito. What are those?
    Mr. Ashe. We have 135 days between the time they provide us 
a completed application to issuance of a final biological 
opinion.
    With regard to a habitat conservation plan which a private 
party would submit to us, we don't have any particular 
deadlines to work in with regard to issuance of a permit.
    Senator Capito. I mean, I think that is problematic, 
obviously, if you are moving forward with private investment. 
But I am going to move on because I don't have too much more 
time.
    You have mentioned a couple of times the lack of resources. 
I would say, and I think I addressed this with you when I spoke 
with you before in our State, we have very limited Fish and 
Wildlife resources, and we have a lot of issues in and around 
the types of industries that are important to us in West 
Virginia and important to the country. So if you could devote 
more of those resources to our State, it would be very helpful.
    Last, I would like to pay you and Fish and Wildlife a big 
compliment. As you know, we have the Canaan Valley National 
Wildlife Refuge. They hosted me there, and I am heavily 
encouraging you that they do need a new visitor center, so we 
need to move that up on the list.
    Mr. Ashe. All right.
    Senator Capito. But I would also like to say that Wendy 
Webber, your regional director who we met with that day, came 
to visit me there, and I want to give a shout out to your 
biologist, Dawn Washington, Ron Hollis, who hosted us there on 
Sunday, my staff, and took us on a bird watching and wildlife 
tour. And I also would like to compliment you and those in the 
Canaan Valley. We do have a Kanawha Valley, but this is Canaan 
Valley, because you have a huge volunteer association, and 
Casey Rucker has joined me twice to educate me on the Refuge, 
so I really appreciate that. And it was on a Sunday, too, so 
thank you very much.
    Mr. Ashe. Well, I am sure they enjoyed having you out 
there, Senator, and thank you for dedicating the time to do 
that.
    And I would say, as we think about this, Mr. Chairman, I 
think the key for us is field capacity. We are a field 
organization. When you go around the country, if you and I went 
to the Blackfoot Valley in Montana and were talking to ranchers 
like Jim Stone at the Rolling Stone Ranch, he would tell you 
that our person, Gary Sullivan or Greg Neudecker, are not just 
good Federal employees, they are good friends to those people. 
They work with them day in and day out.
    When we were working on the sage-grouse, it is a person 
like Angela Sitts, who is a private lands biologist. Senator 
Inhofe has always been a good supporter and friend of our 
Partners for Fish and Wildlife program, where we have people 
out on the ground who are working with landowners, at the 
kitchen table, across the tailgate of a pickup truck, across 
the fence line to work out common sense solutions to problems. 
So it is those kinds of investments that fuel success with a 
law like the Endangered Species Act.
    Senator Sullivan. Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman,
    Thanks for being here to visit with us.
    Mr. Ashe. Thank you, Senator.
    Senator Barrasso. I have a couple questions. Today there 
are more than 1,000 species that are listed as endangered by 
the Fish and Wildlife Service. Even more are considered 
threatened. And yet, in the 40-year history of the Endangered 
Species Act, only 30 species have actually been delisted 
because they have been recovered. To me, this demonstrates 
clear failure of a policy that was established to provide for 
the recovery of imperiled plants and animals.
    My question has to do with implementation. The 
implementation of the Endangered Species Act is notoriously 
inconsistent. In their 2013 resolution, the Western Governors' 
Association identified seven key goals that your agency should 
consider. The first was to require clear, measurable recovery 
parameters.
    In Wyoming, there have been several cases where your agency 
has changed population requirements multiple times through the 
listing process. They are moving targets and they compromise 
our State's ability to engage in meaningful conservation 
activities, and one example is the grizzly bear. The agency has 
continued to move the goal post for grizzly bear recovery. 
Management of the bears, which are recovered, cost the State of 
Wyoming more than $1.5 million a year in conflict resolution 
and damage investigations, landowner compensation.
    Isn't it fair to say that if the agency continues to use 
these moving targets for population, it not only creates a 
financial burden for the States, but it also fosters a sense of 
distrust with the agency?
    Mr. Ashe. Well, it might not surprise you that we maybe 
have a little bit of a disagreement about whether there are 
moving targets, Senator. I certainly think with the grizzly 
bear we have not. We have an interagency grizzly bear committee 
which has been a 20-year success story. It involves all of the 
States and all of the Federal agencies, and they have a 
technical team and committee that works together to identify 
the recovery objectives, and we have held to those recovery 
objectives. We delisted the bear, actually, in 2007 and we, 
unfortunately, lost in a lawsuit, but we have worked again with 
our State partners to come back and we are literally on the 
precipice of another proposal to delist the species. I think we 
will be successful.
    But we have not, in my opinion, changed goal posts. I would 
say that the law requires us to use best available science, 
which means in the course of a 20-year recovery plan, can you 
learn new things? Do you have new science that you have to 
respond to? The answer is yes. So do we have to change recovery 
targets? Sometimes, yes, because we have an obligation to use 
the best available science as we make these decisions and we 
learn over the course of 10 or 20 or 30 years. But we try to do 
that in concert with our State and other partners. Can we do 
better? I suspect we can do better, and I hope you see in us a 
commitment to do that.
    Senator Barrasso. You testified before this committee in 
May that Wyoming had met every goal set by Fish and Wildlife, 
and it was time to delist the gray wolf. There are other 
recovered species that remain protected under the Endangered 
Species Act. So the question comes is the management of the 
gray wolf and other already recovered species have the 
potential to distract from other more pressing and in the 
recovery efforts that you need to make elsewhere?
    Mr. Ashe. They do do that, Senator, and I think I have been 
frank with you and others in this discussion. The U.S. Fish and 
Wildlife Service, which led wolf recovery, it was our people 
out on the ground who were suffering the slings and arrows of 
outrage. But we worked through that with our State partners, 
and Wyoming has been a great partner in wolf recovery and 
wolves in Wyoming are recovered, and it is one of my greatest 
disappointments as Director to this point have failed in having 
that recognized.
    But your point is a good one. We have other species that 
need the protections of the Endangered Species Act, that need 
the work of the men and women of the U.S. Fish and Wildlife 
Service and our partners. Wolf is not one of them. We should be 
working on bull trout or wolverine or greater sage-grouse or 
other species that can be helped with protection and 
conservation actions either pre-listing or post-listing under 
the Endangered Species Act.
    Senator Barrasso. And the final question just kind of 
follows up, and you partially answered it, in terms of your 
agency is currently considering more than 600 species for 
future protection. Many species already listed do not have 
active recovery plans, so do you feel you have the time and the 
resources to adequately examine any of the petitioned species 
with such a significant backlog of those that you have 
determined require protection?
    Mr. Ashe. We do, Senator, and I think we negotiated a 
settlement agreement. It was a hard negotiation, and we 
negotiated the timeline for that settlement agreement knowing 
the resources that we could expect to receive for our listing 
program. So the settlement that we negotiated extended the 
deadlines, the statutory deadlines, so through that settlement 
we bought more time.
    So we matched up the schedule with our priorities, 
biological priorities and our resource priorities, so I believe 
we have the resources to do the job in terms of the listing 
workload that we have now. It is a substantial workload, 
though, and it is a growing workload.
    Senator Barrasso. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Sullivan. Director Ashe, I just want to conclude 
with two other quick questions.
    First, we are obviously very focused on the species and 
protecting them, but we are also focused on the livelihood of 
our constituents, on jobs, on a strong economy. I hear from 
Alaskans sometimes, hey, there is so much focus on the 
Endangered Species Act, what about the endangered jobs act? 
What about making sure we take care of employment?
    How do you balance that call in terms of the listing of 
species and the impact it has on jobs and the economy? And is 
there more needed to be done in the statute to make sure that 
the Federal agencies are doing the proper balance?
    Mr. Ashe. I think, as I have said, we have substantial 
flexibility, and I think we have been innovating during this 
Administration and exploring where we can find further 
flexibility in the law. I believe that the basic question of 
whether a species should be listed is a diagnosis. It is either 
endangered or it is threatened or it is not, and that is a kind 
of fundamental precept in the law, that science-based 
determination. After that, when we designate critical habitat, 
we can take into consideration national security; we can take 
into consideration economic impacts or social impacts. When we 
do a consultation with a Federal agency, if we find jeopardy, 
the thing we recommend is something called a reasonable and 
prudent alternative. So we work with the Federal agency within 
their statutory authority to do the best they can to conserve a 
species.
    So I think the law has flexibility. Certainly, Congress 
could explore whether additional flexibility would be 
advisable, but I think on that initial threshold decision it 
should be a science-based determination.
    Senator Sullivan. OK, let me conclude with one final 
question regarding climate listings. As you probably know, in 
the last few years, Fish and Wildlife Service NMFS have listed 
or designated habitat for species, the polar bear, the bearded 
seal, the ring seal in Alaska not based on a decline in the 
population, a species decline, but, rather, a perceived future 
decline as a result of climate change and climate change 
modeling that you are predicting there will be a decline. And, 
as you can imagine, when you live in an Arctic State like 
Alaska and you are making listing decisions based on future 
modeling of climate change when the species themselves 
physically are actually strong right now, there seems like 
there is no limit to the number of species that you could list 
in an Arctic State like ours.
    So what is the limit and where do you derive your authority 
to make listings based on future predictions in computer 
models, not based on actual physical declines of species that 
are presently occurring?
    Mr. Ashe. Thank you, Mr. Chairman. Before I answer that, I 
do want to say I am going to have two Governors come up in the 
panel after me, and they are beginning an effort within the 
context of the Western Governors' Association to explore 
additional administrative and potential legislative 
improvements to the Endangered Species Act, and we in the Fish 
and Wildlife Service have pledged our support and partnership 
in doing that. The reason I bring that up is because that is a 
question that Governor Mead asked me earlier in the day.
    I think that with regard to a species, sometimes we are 
certainly conflicted if we wait until a species is on the verge 
of extinction.
    Senator Sullivan. No, but I didn't say that.
    Mr. Ashe. We have limited flexibility. So if we want 
maximum flexibility, then we have to look into the foreseeable 
future, which the law asks us to do, tells us to do; that we 
have to make a determination whether a species is facing an 
imminent threat, that is, endangered, or whether they are 
likely to become endangered in the foreseeable future. That 
would be threatened. So the law asks us to look into the 
future. The best way we can do that is by the use of models.
    With regard to species that are principally affected by 
climate, it is actually a pretty narrow range of species. All 
species will be affected to some degree by a changing climate, 
but species for which climate change is the principle threat, 
like polar bear or ring seal, there are relatively few of 
those. And if you look at how the Fish and Wildlife Service has 
made determinations, we were petitioned on polar bear, which we 
listed as threatened, foreseeable future. We were petitioned on 
the pika, a small rabbit that occupies high alpine in the 
Western U.S., and we found that not warranted. We were 
petitioned on wolverine and we found that not warranted.
    Senator Sullivan. But do you see the concern is that if 
there is a population that is not in decline, that is even 
increasing, the polar bear population had, over the last 
several decades, increased pretty dramatically, and yet we have 
a listing based on a computer modeling of what might happen in 
the future, particularly if you live in a State like mine, the 
species you just mentioned are all in Alaska, it seems like it 
is a limitless amount of discretion that you have. You are not 
basing it on an actual decline. You could have a healthy 
population, which the ring seal, I think most people would 
agree is a healthy population, but you are listing it anyways 
based on future modeling, which by its very nature is 
speculative. I think it just seems like a limitless approach to 
doing this. And if you live in a State that is an Arctic State, 
there could be no end in sight to the number of petitions and 
listings based on this kind of precedent.
    Mr. Ashe. I don't agree with you, a limitless. Speculation 
is one word. As a scientist, a model is a predictive tool; it 
helps you predict an outcome. It is not perfect, but it is the 
best we can do. Say our decision on polar bear, the modeling 
that we applied was very conservative modeling about projecting 
what was going to happen to the sea ice habitat of the polar 
bear, and the Beaufort Sea population of the polar bear is in 
pretty significant decline, and we know that that is correlated 
to the loss of their sea ice habitat. And since we made our 
listing decision back in 2008, at every juncture as we have 
looked at new information about the rate of sea ice loss, it is 
worse than we thought it was going to be.
    So when you apply models, you analyze the uncertainty 
related to those models. It is not speculation, it is the 
application of science. That is how we have 5-day and 10-day 
weather forecasts, is we are applying a model to the future, 
and it certainly is not perfect, but we all rely on it in 
planning our day-to-day activities. So modeling is very 
valuable and invaluable tool as we think about analyzing 
complex situations.
    But I agree with you it is a challenge, but I think, again, 
in the Fish and Wildlife Service we have done that 
evenhandedly. In the case of the pika, even though that species 
is being affected by climate change, it is unequivocal that is 
being, we found that there would be populations that remained 
stable and secure into the foreseeable future.
    Senator Sullivan. Well, I am going to turn to the next 
panel here, but there are a lot of issues here with regard to 
what is the foreseeable future, how you define that, and, 
again, the discretion that seems it can lead to kind of a 
limitless number of possibilities if you have strengthened 
populations. We are very proud of our strong populations, huge 
populations of species in Alaska, but if it is based on not an 
actual decline or any indications of an actual decline, but 
future modeling, it just seems that almost any species is 
available for listing. And as you are seeing through the 
petition process from certain groups, they are essentially 
trying to do that, certainly in my State, list almost 
everything, and it is a little troubling and concerning, but it 
is something we can work on.
    Mr. Ashe. Well, thank you, Senator.
    Senator Inhofe. I only have one question.
    It disturbed me a little bit when Senator Sullivan was 
talking about what you are doing now anticipating climate 
change and all of this. Who establishes the criteria for these 
assumptions in the future that you are preparing for? Who does 
that?
    Mr. Ashe. We rely on the best science available, so in the 
case of the polar bear----
    Senator Inhofe. Well, no, when you are talking about what 
is going to happen in the future to climate, where the climate 
is going to change.
    Mr. Ashe. We rely on NASA, NOAA.
    Senator Inhofe. IPCC?
    Mr. Ashe. The IPCC report provides important information, 
but mainly, because this was an issue about sea ice, we relied 
on NOAA and NASA experts.
    Senator Inhofe. What I am saying is you can use what you 
consider to be the best science available. I might not agree 
with you that that is the best science available.
    Mr. Ashe. You might not.
    Senator Inhofe. So I assume that we will just have to wait 
for another Administration, then, before we can get this done.
    One last thing. Senator Barrasso brought up something that 
I had already been talking about, and that is if you are 
looking at 1600 listings out there and you consider it to be 
successful that you have been able to take off the list 16 out 
of 1600, I don't think that is very successful, and I think 
your answer was it is a process that takes time, it takes a lot 
of resources to get done.
    My question is that can be changed. That can be changed 
legislatively, and I think maybe we should be looking at that. 
If it takes that long so successfully come up with 16 off the 
list of 1600, I think it is time for a change. And that is my 
job, not yours.
    Senator Sullivan. Director Ashe, thank you very much. We do 
want to work with you on looking at ways to move forward on 
smart reforms for the Endangered Species Act. Thank you for 
your testimony.
    I want to welcome our second panel of witnesses: Hon. Matt 
Mead, Governor of Wyoming, and Hon. Steve Bullock, Governor of 
Montana.
    Senator Barrasso. Thank you very much, Mr. Chairman. I am 
pleased to introduce Governor Matt Mead, the thirty-second 
Governor of Wyoming. Governor Mead was first elected in 2010, 
re-elected for a second term in 2014, raised on his family 
ranch in Teton County, a law degree from the University of 
Wyoming. He has served as county and Federal prosecutor, 
practiced privately in law and served the United States 
attorney for Wyoming as U.S. attorney from October 2001 to June 
2007. He also serves in regional and national leadership roles, 
including currently being chairman of the Western Governors' 
Association, and serves on the Council of Governors and is vice 
chairman of the Natural Resources Committee of the National 
Governors Association.
    So I am very pleased to welcome Governor Mead here today to 
share his remarks on the Endangered Species Act.
    Welcome, Governor Mead.
    Senator Sullivan. Governor, you have 5 minutes to deliver 
your opening statement. Governor Mead.

 STATEMENT OF MATT MEAD, GOVERNOR, STATE OF WYOMING, CHAIRMAN, 
                 WESTERN GOVERNORS' ASSOCIATION

    Mr. Mead. Thank you, Governor Bullock, for turning on my 
mic.
    Mr. Chairman, thank you very much. It is a privilege to be 
here and a privilege to be introduced by our two fine Senators 
from Wyoming.
    Thank you, Senator Barrasso and Senator Enzi. It is a 
privilege.
    We have several Western Governors here, and we have 
meetings for the next couple of days, so it is a pleasure to be 
with Governor Bullock from Montana. He is not only a fellow 
Governor; he is a friend, and he is also Vice Chairman of the 
Western Governors' Association.
    We are honored to be here, and we look forward to your 
questions. I am going to try to keep my comments relatively 
brief so we have as much time for questions as possible.
    I am Governor of the State of Wyoming, and at the end of 
June, I was elected chairman of the Western Governors' 
Association, which represents Governors of 19 Western States 
and 3 U.S. flag islands. I will serve chairman for 1 year. 
Governor Bullock serves as vice chairman and then will take 
over as chairman. In addition to our comments today, we have 
provided written remarks on behalf of Western Governors as a 
group, and we hope you will consider those as well.
    As you all know, the West is a vast, varied place, and each 
Western State has its own specific concerns and viewpoints. 
Yet, Western States share challenges, goals, and opportunities 
regarding natural resources, for example, in the area of water, 
wildlife, forests, and energy development. Western Governors, 
through the WGA, seek areas where we have issues in common, 
where we can reach consensus to find solutions, act 
cooperatively, and benefit all our States.
    Each chairman has an opportunity to designate an 
initiative, an area of focus during the Governor's tenure as 
chairman. Recent initiatives prior to mine have included 
drought and getting outdoors in the West. My initiative is the 
Endangered Species Act, and is aimed at reforming and improving 
the Endangered Species Act.
    Just a couple of numbers that we have, and you all have 
mentioned some as well. Currently, the information we have is 
listed as threatened or endangered species in the U.S. is 
1,567. Outside the U.S., 653, for a total of 2,220. Since 1973, 
the total species delisted is 59. Species delisted due to 
extinction, 10. Species delisted due to error in original data, 
19. Species delisted due to recovery, 30. So of the 59, 10 went 
extinct, 19 were removed because of a mistake, 30 have been 
delisted because they have been recovered. So totally delisted 
for any reason as a percent is 2.56 percent. Total delisted due 
to recovery as a percent, 1.3 percent.
    When we have worked on issues such as grizzly bears or 
wolves in Wyoming, we see the challenges. And the reason I 
wanted to choose the Endangered Species Act as an initiative is 
that, as I view it, from my experience growing up in Wyoming 
and as Governor of Wyoming, the Endangered Species Act, as it 
is today, is not working. I think it is broken. There have been 
some tremendous successes, no doubt about it, but let me just 
give you a firsthand example.
    When I came into office, the State of Wyoming had worked 
years on trying to get the wolves delisted. So I sat down with 
then-Secretary Salazar and Director Ashe. Our offices worked 
long and hard, and had face-to-face meetings with one another, 
sometimes just two or three of us in the room. Sometimes it was 
just me and the secretary; sometimes it was just me and 
Director Ashe. And building on a broad coalition with ag 
groups, with industrial groups, with sportsmen, we came up with 
a plan that we thought would work for Wyoming and make sure 
there was a healthy wolf population. We all agreed upon this. 
We went forward. We had a hunting season. And during that time 
that we had the wolves delisted, not only was our plan a 
success; in fact, we showed that the wolves were becoming even 
stronger.
    So sometime after the fact we get challenged, it goes to 
court, and a judge in D.C. says, yes, the wolf is recovered, 
but too bad. And this is what leads to this question of 
certainty. How do we get to certainty? How do we get to the 
finish line?
    In Wyoming, there is no question, as in across the West, we 
value our wildlife. It provides a quality of life. That is why 
many of live in the West. But we also value jobs. We also value 
careers for our kids and our grandkids. And when the Endangered 
Species Act creates these uncertainties, we get the same 
questions that Senator Inhofe gets asked and you get asked, 
Senator Sullivan: What about the jobs? How do we keep people 
working? How do we keep food on the table? So we do need some 
certainty.
    And then when you throw in things like modeling climate 
change, I am not an expert in this field, but I will tell you 
that the ranchers in Wyoming ask me, you know, when they can 
tell me when it is going to rain and when I am going to hay, 
then I will start listening what is going to happen 10 or 20 
years beyond that on the climate.
    These are practical questions that people ask, and we are 
required to answer those questions. But when you combine 
modeling with the foreseeable future, which is also undefined, 
the Western Governors have asked for some clarification and 
definition on those things to try to find a way forward.
    So, in my view, the ESA is broken, and since 1973, when you 
have just about 1 percent recovered, that, I do not think is a 
success. It leads to economic burdens that impact our States, 
our citizens, and our businesses.
    The grizzly bear has been mentioned, that is another 
example, because as soon as we had wolves delisted for that 
short period of time, I wrote Secretary Salazar in, I think it 
was, 2012 and I said, next we need to get the grizzly bears 
delisted.
    Senator Inhofe, you asked the question about why does it 
take so long. Well, I understand the answer that it may take 20 
or 30 years for species recovery, or 50 years, but once it is 
recovered the question is why does it take so long after they 
are recovered to get them off the list. When everybody agrees, 
including the secretary, including the director, that it is 
recovered, why can't we move forward more quickly? Because 
nobody says we don't want to care about the species, but once 
they are recovered, let's get them off the list not only for 
the certainty it provides industry but, in fact, to do a better 
job for other species. When we are wasting time, money, and 
effort, when we are spending $2 million-plus just in Wyoming 
taking care of grizzly bears, what species are we not taking 
care of?
    So last week was a good example of success. The U.S. Fish 
and Wildlife Service decided not to list the greater sage-
grouse. This shows success on a number of levels, the 
cooperation that we had with the secretary's office, the 
director's office, with BLM, Forest Service, with States across 
the West. It was a tremendous effort, and we should all be 
proud of that. But I would say to you, Mr. Chairman, that 
wasn't because of the Act; it was because of the efforts beyond 
the Act, at the local level, county commissioners, city 
council, our State legislators, those people in the Federal 
Government who went beyond the Act, the people in the State, 
starting with my predecessor, Governor Freudenthal, who went 
beyond the Act that created the plan. That was not due to the 
Act; it was due to the great relationships.
    We need more certainty than that, because those 
relationships may not always be there. We hope that that is a 
model how to go forward in the future, but it would be very 
nice to have some statutory sideboards to make sure we can 
reach those goals, because everybody rightfully asks the 
question: When do we get to the finish line? How do we get 
there? We are willing to do it if we know there is a finish 
line and we can have this certainty.
    So my initiative will be a bipartisan regional 
conversation. Governors are particularly well suited to exert 
leadership in this area, given State obligations to manage 
wildlife and Western States' outstanding conservation record. 
We care about wildlife in the West. We, the States, manage it 
well and we need a system that works. We stand ready, Mr. 
Chairman, to work with the committee and Congress, with Federal 
agencies and others to reform and improve the ESA. It is time 
to do this not only for our citizens; it is time to do this for 
species.
    Thank you, sir.
    [The prepared statement of Mr. Mead follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    Senator Inhofe. Thank you, Governor Mead, and thank you for 
your leadership on this. And I can assure you we are very 
interested in working with the Western Governors Association on 
common sense ESA reforms, so we will continue to do that.
    Governor Bullock.

 STATEMENT OF STEVE BULLOCK, GOVERNOR, STATE OF MONTANA, VICE 
            CHARIMAN, WESTERN GOVERNORS' ASSOCIATION

    Mr. Bullock. Thank you so much, Chairman Sullivan, members 
of the committee. Chairman Sullivan, it is wonderful to see you 
in this role, as opposed to our former role as attorneys 
general.
    Senator Sullivan. You, too.
    Mr. Bullock. And I do want to thank you for the opportunity 
to offer my perspective on this topic of significant import. 
I'm here today not only as Governor of a State that has great 
diversity of wildlife and many experiences with the Endangered 
Species Act, but also as the Vice Chair of Western Governors' 
Association, an organization that really does embody my idea of 
bipartisanship.
    WGA has recognized by resolution that the ESA can only be 
reauthorized through legislation developed in a consensus 
fashion that results in broad bipartisan support and maintains 
the intent of the Act. That continues to be our position today.
    Looking forward, the stories of two different species on my 
landscape in Montana might provide lessons as you consider 
steps that Congress could take.
    First, I think we need to do everything that we can to make 
certain that species aren't listed in the first place, and the 
committee and Congress should double down on their efforts as 
far as tools and assistance you can offer to incent private 
landowners and States. My case study for that proposition is 
the Arctic grayling. In the lower 48 States, remnant 
populations remain only in Montana, by the 1930s, less than 15 
percent of their historic range.
    Last August, the Fish and Wildlife Service determined the 
Arctic grayling was not warranted for listing. This is arguably 
one of the most significant ESA success stories in the Nation 
because State and Federal agencies and key partners developed 
close relationships of trust with 30 key landowners in the Big 
Hole Valley, covering 156,000 acres. Those landowners, many of 
them, voluntarily gave up water rights they are legally 
entitled to use to conserve this fish. It was possible because 
of landowner agreements authorized by the ESA to encourage 
conservation of non-Federal land to prevent listing. Under 
these agreements, Montana and other partners improved habitat, 
water flows, took other helpful steps. Some critical seed money 
came from State wildlife grants which are allocated by 
congressional appropriation.
    The Fish and Wildlife Service touts these agreements, the 
Canada Conservation Agreements, with assurances, this is an 
example, as an important tool for working with landowners on 
endangered species conservation, and I agree. The question is 
what more can we do to incent voluntary efforts to protect 
species before the ESA ever comes into view. And is Congress 
willing to increase funding for State agencies to work on that 
active collaborative habitat efforts for risked species? I hope 
and think that you should. We know that with sage-grouse, the 
NRCS and sage-grouse initiative will play a critical role. We 
need to be looking to provide other tools and making these 
agreements easier to administer.
    Second, let's recognize when the Act has served its 
intended purpose, then trust the States to manage the animals 
within their borders thereafter. The case study for that is the 
grizzly bear, a success story for recovery which still remains 
listed. The Governor and I often fight about water, but we 
don't fight about at least the grizzly bear.
    We are certainly working out our differences with Fish and 
Wildlife Services. I am optimistic that we are going to find a 
path forward for delisting. There are many aspects of that 
story that are positive, like the private landowners that are 
engaged demonstrate a remarkable commitment, but the grizzly 
bear needs to be delisted and returned to State management. Our 
States hold our fish and wildlife resources in trust for all of 
our citizens. It is a responsibility that we take so very 
seriously. The delisting process must become more 
straightforward so we can spend our collective resources on 
species that may need more attention.
    It is worth noting that I have offered two instances where 
the ESA has actually worked or is working. But the Act could 
certainly work better, and we could do more to leverage the 
role of State and private partners into more resources on the 
ground for species conservation. After all, the hard work 
really is on the ground and in the community, not always in the 
legislative halls.
    Just last week I did have the opportunity to join the 
Secretary of Interior in announcing the greater sage-grouse was 
not warranted for listing under the Endangered Species Act. As 
I sat with my fellow Governors, Governor Mead, Hickenlooper, 
and Sandoval, I couldn't help but think how logical it was for 
the Western Governors Association to tackle these issues, 
attempt to build a regional consensus, as Governor Mead has 
proposed with his chair's initiative; and I will certainly 
support him in those efforts. Meaningful efforts to address the 
pitfalls and the possibilities of the ESA must begin around 
conference room and kitchen tables, determining first what 
works on the ground.
    Finally, it is worth remembering that the Endangered 
Species Act was signed by President Nixon in 1973, who 
recognized the Act as an important commitment by our Nation to 
conserve and protect the rich diversity of animal and plant 
life for future generations. That noble goal does still hold 
true today.
    Thank you again for this opportunity to appear before the 
committee.
    [The prepared statement of Mr. Bullock follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    Senator Inhofe. Thank you, gentlemen, and thank you again 
for your leadership on this issue. I think it is a great 
opportunity in terms of the Western Governors' Association's 
focus on this issue with your ideas. I think a lot of times the 
best ideas come from the ground, come from the States, some we 
are going to be very, very open and encouraging to hear what 
your suggestions are with regard to reforming the ESA.
    I do want to start by just asking you, in your experience, 
and I think a number of us have experience from different times 
working at the State level, have you seen the consultation, 
particularly when it comes to listings, that is required by the 
ESA by Federal agencies, whether it is Fish and Wildlife or 
some of the agencies, or, in your experience, has it been more 
of an afterthought with regard to a listing, and then they come 
and explain it to you later? This, at least in my experience, 
has been a frustration because, as the two of you mentioned, a 
lot of times the States have more information. You know, 
Director Ashe talked about science. Absolutely. But more 
science and a sense of how it is going to impact the local 
communities better than folks in Washington do. I am curious 
what your experience is, both of you, on that issue.
    Mr. Mead. Thank you, Mr. Chairman. I guess I would say not 
just during my time, but what I am aware of, it has been 
somewhat inconsistent. Having said that, I mentioned wolves, I 
mentioned grizzly bears, the greater sage-grouse. The level of 
the consultation on those three species, for example, we 
couldn't ask for more. As a matter of fact, I viewed it, these 
last couple years, a good day when I didn't mentioned the word 
sage-grouse, because we were so involved with the Federal 
agencies, and they with us on that issue.
    So I think that, as I said, and you brought up the Act does 
require that. It absolutely requires that. That, as I have 
said, I think historically, I think that may be hit or miss. I 
would just tell you my experience on those three species, there 
has been no question about the consultation, which is a 
different question than agreement.
    Senator Sullivan. Right.
    Mr. Mead. But had the consultation.
    Senator Sullivan. Governor Bullock.
    Mr. Bullock. I would say certainly not enough consultation 
when the decision goes contrary to what I believe it should. 
Beyond that, I can point to a number of instances, 2009, a 
leopard frog, where it was being petitioned. You are looking at 
it. Actually, it was with one of the grants that are provided 
by Congress. We had the opportunity to do some more studying, 
and ultimately it didn't end up listed. The Arctic grayling was 
another one where we actually worked together, and I think that 
that would be consultation.
    So sometimes it works, sometimes it doesn't, but it is 
something that I think that Governor Mead and we all should be 
looking at over the next year to ensure, because I think as you 
pointed out in the opening Chairman Sullivan, section 6 of the 
Act says you must be consulting with States, and we as States 
certainly think that is essential. And our fish and wildlife 
scientists and managers are on those landscapes and working 
hard for decades, some of them, as individuals, so we do know 
what is happening in our individual States.
    Senator Sullivan. Let me ask kind of a follow up, take this 
a little bit further on two ideas for ESA reform. You both 
alluded to them in your testimony. One would be a stronger role 
for States, even as far as an agreement with the Federal 
Government on a listing decision, whether as a group of States 
or, as I mentioned, if there was a species that was solely 
residing in somebody's State, to have a co-decisionmaking 
authority. I am wondering if you have thoughts about that. You 
know, Director Ashe mentioned, well, that doesn't happen now. 
Well, it doesn't happen now because the law doesn't allow that 
now. But the law could allow that if we amended the law.
    Second, in terms of judicial review, I think, Governor 
Mead, your point is a really good one, that you can even get to 
the point with Federal agencies and different groups of what 
you might agree with regard to a species, whether to list it or 
not, the recovery plan, and then all of a sudden it is thrown 
into litigation in the D.C. Circuit or the Ninth Circuit and it 
becomes almost a craps shoot; three judges who don't know much 
about any of our States, usually, making a call on something 
that we have spent months or even years working on.
    What are your thoughts on reforming the ESA with regard to 
those two issues?
    Mr. Mead. The court system is problematic for me because I 
have thought about if I could just change the law myself, I 
thought I would like a very strong presumption that if the 
States and the director agree something shouldn't be listed, it 
shouldn't be. But I don't necessarily want it the other way. So 
I have had a hard time trying to figure out how exactly how I 
want that. But I would say this. I think that that problem is 
significant because the coalition we built to get the plan for 
the gray wolf, it was not just ranchers, it was sportsmen's 
groups, it was environmental groups.
    Senator Sullivan. Right.
    Mr. Mead. And we spent a year putting that together and 
then getting it through the legislature and getting buy-in, and 
we worked on the conservation plan, how are we going to go 
about this. So we were all set and the secretary and the 
director with me. And then a year and a half or 2 years after 
the fact it is all collapsed.
    Now, how am I going to go back and build another coalition? 
How am I going to go back and get a conservation plan? That is 
a significant problem. We don't know the answer to that yet, 
Mr. Chairman, but one thing that would certainly help is before 
there is a listing, one, it should be a single listing rather 
than a multiple listing.
    Senator Sullivan. Right.
    Mr. Mead. Western Governors also think that before a 
listing is made, that whoever is proposing the listing, that 
they get all available scientific data from the States; that 
they don't just throw it out there and then go on a fishing 
expedition, they get that from the States. The States have 
incredible good data. Our Game and Fish department, I think, is 
as knowledgeable on the wildlife in Wyoming as anybody. That 
they have that. That they not only have that, they put it 
together. That they notify the States before they actually make 
the request of the Fish and Wildlife Service so that we are 
aware of them. That would be not only good for the States, but, 
frankly, if a species needs to be listed, don't do it in a 
haphazard fashion; get that data, get the scientific data, all 
the data that is debatable, before you are allowed to list a 
species. And you can only list one species rather than all 
these species and which science applies to which species.
    Senator Sullivan. Great.
    Governor Bullock.
    Mr. Bullock. I largely concur. You know, I said at one 
point, when I was running for office, there are two ways to 
become a biologist: one is to go to years of school and the 
other is to run for office. And I say that only inasmuch as 
wolves are recovered in Montana, or delisted, but there were so 
many individual officeholders and folks that really said, as 
individuals, that they had all of the answers. I think science 
has to guide this, and science, though, back to the initial 
question of individual consultation with the States. I am not 
sure that it should be vested entirely over to the States.
    Senator Sullivan. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I plan to be here for the remaining of the meeting, so I 
would invite Senator Barrasso to go ahead.
    Senator Barrasso. Well, thank you very much, Mr. Chairman. 
Thank you very much, Senator Inhofe.
    Thank you both for being with us today to share your 
remarks. I appreciate your positions of State leadership 
through the Western Governors' Association; I think provides us 
a valuable perspective regarding on-the-ground consequences of 
the Endangered Species Act.
    I would like to point out that Director Ashe has stayed, 
and it is a tremendous credit to him and the respect he has for 
both of you, because so often Administration witnesses come, 
testify, and leave, and don't have the benefit of hearing all 
the things that you said. But I am sure it is the personal 
respect that he has for both of you and the relationship that 
you have developed working together.
    And I would say that Director Ashe is not a typical member 
of this Administration; I think he has been a partner to work 
with. He hasn't been always able to get everything done, but 
you heard from his answers today the respect for what Wyoming 
has done with respect to the gray wolf and realizing that we 
have done the job that anyone has ever asked of us.
    Governor Mead, first of all, I would like to say I really 
appreciate your work with Fish and Wildlife to ensure the sage-
grouse determination was ``not warranted.'' You spoke about the 
way Fish and Wildlife has approached conservation of the gray 
wolf and the grizzly bear in Wyoming. Specifically, you 
mentioned some of the economic burdens placed on States, 
specifically the State of Wyoming, when recovered species 
remain listed. So could you provide maybe a couple of examples 
of why the Endangered Species Act places economic burdens on 
State and local governments?
    Mr. Mead. Well, I will give you an example using the sage-
grouse, Senator Barrasso. We export more BTUs than any other 
State. We are proudly an energy State, and we are proudly the 
No. 1 coal producer. But if the sage-grouse would have been 
listed on the maps that we showed, 80 percent of the coal 
available, coal mines, would have been affected by that 
listing. Two-thirds of potential oil and gas developments in 
our State would have been covered by that listing. When you are 
a State that exports that much energy, to take away or reduce 
two-thirds of your oil and gas, reduce 80 percent of your coal 
is significant, significant economic burden.
    Those are just dollars that you can sort of point to. But 
what you cannot calculate, Senator Barrasso, that is real is 
lost opportunity costs. How can I tell a company you can come 
into Wyoming and you can start your development, but I don't 
know if you are going to get it through in 1 year, 3 years, 5 
years, or a decade? I can't calculate that. I can't calculate 
that loss to our economy. I can't calculate that lost 
opportunity cost.
    And if I was able to tell that company, listen, we have a 
plan, a recovery plan that is in place, here is how you reach 
the goal line, and here is how long it is going to take you, 
then they can make that choice. But when it is an open-ended 
question, Senator, it may be 5 years or 20 years--and just on 
the gray wolf, how many years have we been in court? It has 
been a number of years--that has a huge economic cost that we 
cannot calculate but we know is very real and very hurtful to 
the economy of Wyoming and to the West.
    Senator Barrasso. You know, I asked Director Ashe about 
moving targets. I don't know if you would like to comment at 
all about moving targets, if that has been a frustrating 
process for our State in how we try to deal with and meet 
Federal goals that I believe keep changing.
    Mr. Mead. Director Ashe and I have a little bit of a 
different point of view on the grizzly bear and whether the 
target was moving or not. What I would tell you, Senator, is we 
have negotiated that number where we were. As you recall, I 
think it was 2010, the court sent us back and said we have to 
look at the white bark pine and how it affects the grizzly 
bears. That study was done; we showed white bark pine was going 
down, the grizzly bear population was continuing to go up. And 
the estimates on grizzly bears, it depends who you talk to, but 
we were looking at 300, then 500. Now we think we have over 
1200 bears. And there is no question by any account that we 
have whatever goalpost they set in the past, we have passed it 
or even doubled it. And there is an economic impact on that as 
well, because we care about wildlife, and you have to have a 
balance in wildlife. You have to have States manage wildlife. 
And when you have over-population of grizzly bears or wolves, 
it hurts your moose, it hurts your elk, it hurts your 
livestock.
    And, frankly, I think it is also an important point, 
Senator Barrasso, to point out the grizzly bear deaths that we 
are experiencing have increased dramatically over the last 5 or 
6 years because of the conflict, because of the number of 
grizzly bears. So people come to me about that, and it is tough 
as the Governor of a State to say I don't have the authority to 
manage grizzly bears or any other species in my State.
    Senator Barrasso. Governor Bullock, anything you would like 
to add to that?
    Mr. Bullock. No, I think Governor Mead hit it well. 
Director Ashe may be here just because he is afraid of what he 
and I might say.
    [Laughter.]
    Senator Barrasso. Anything you would like to add, since he 
is here to listen to what you would like to say?
    Mr. Bullock. No, no. From that perspective, no. In all 
sincerity, I think that Governor Mead nailed it. That is one of 
the things, we have to work together. The grizzly bear 
population extends, it is not limited to Wyoming or Montana, as 
we share this park; and I think that we have worked together. I 
am optimistic that it is going to get done, but it is the same 
frustration at times saying that where I think we can go, I 
think more than looking backward, is looking forward, which 
hopefully is what this initiative will really do, in part, is 
say when is enough enough. And we in the Western States have so 
many, especially from the wildlife trying to manage this, can 
we offer anything constructive as we work together for your 
all's consideration.
    Senator Barrasso. OK, thank you to both of you.
    Thank you, Senator Inhofe.
    Thanks, Mr. Chairman.
    Senator Sullivan. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I think we better be a little careful here, because my 
saying all these nice things about Director Ashe, and then, of 
course, Barrasso doing the same thing, we might impair his 
relationship with his superior.
    Nobody gets it?
    First of all, were the two of you here when we had Director 
Ashe on the stand?
    Mr. Mead. Yes.
    Mr. Bullock. Yes.
    Senator Inhofe. OK. You might remember I brought up the 
issue on when you are looking at things that might happen in 
the future, and he said we base it on the best science 
available. Remember that discussion that we had? Of course, 
they are now looking at climate change as something that 
absolutely is going to happen. You know, it is funny to watch 
all these people. We had a hearing this morning where, one by 
one, each one was talking about, oh, yes, it is a fact, science 
is settled, and all that. Well, science isn't settled. 
Everybody knows that. In fact, everybody knows it. The polls 
show, this Gallup poll, the most recent one, it used to be that 
climate change or global warming was always No. 1 or No. 2. Did 
you know in the March poll of Gallup, the same criteria, dead 
last, right after tropical rain forests? In their general poll 
it was number 15 out of concerns for America, out of 15 
concerns. So the people know better.
    My concern is this. Not to try to plead a case that the 
science is not settled, but when they are making decisions that 
are predicated on the assumption that certain things are going 
to happen, then we find out that the IPCC, the 
Intergovernmental Panel on Climate Change, was the basis of all 
of that information and that science, after Climate-gate 
totally destroyed their reputation, I wonder how this can 
happen. It seems to me that it is kind of arbitrary. And as I 
observed in the first panel, it looks like that is not going to 
change until we have a different Administration.
    Now, I only bring that up because from you guys, from a 
Governor's perspective, you have to be really concerned, 
because they are making decisions that have huge effects, as 
both of you have said, on you, on your State, on the job that 
you are doing; and yet it is predicated on something you may or 
may not believe in. So it is just not a matter of looking to 
see what is happening to the numbers of a species that is out 
there; it is a matter of how you can project something that 
might happen in the future and thereby do something that you 
otherwise would not want to do.
    I am not sure I am making sense with that, but I am 
concerned with that.
    Both of you agree that the States do things better than the 
Federal Government. Having served on the State level, I even 
take it down one more step--the closer you get to the people. 
When I was mayor of Tulsa, there wasn't any hiding place there; 
we knew exactly what people thought and what we could do 
better.
    Now, why don't you each one kind of outline what areas you 
believe the States are better than the Federal Government in 
terms of giving us some ideas so that when the time comes we 
can make some changes, real changes, to the Endangered Species 
Act? We can kind of use that. Maybe make a couple of comments 
and then elaborate for the record.
    Mr. Mead. Well, thank you, Mr. Chairman, Senator. I will do 
my best to answer that question.
    One reason I think that States are better at managing 
wildlife is just sheer numbers. Our folks that work for our 
Game and Fish are always going to be more in terms of just raw 
numbers than the Fish and Wildlife Service would have 
available.
    Two is, in Wyoming and I think Western States, we view the 
wildlife as belonging to the citizens of Wyoming. And the track 
record of our Game and Fish and the data that they have 
collected, the expertise on which they work on everything from 
mule deer populations to brucellosis, provides to me a track 
record that is real for each individual State that I view as 
the best data available and the science available.
    Two is that when we have, for example, a situation where 
there is a question on a species, whether it should be listed 
or delisted, the people that I go to first always are my Game 
and Fish.
    So, Senator, my best answer is by practice and I think the 
history of Game and Fish Departments across the Western States, 
because we take such pride in our game and fish, that is where 
the action is. That is where the data is, that is where the 
science is, and that is why I think it is very important, 
before a listing is made, that whoever is petitioning to have a 
species listed, gather that data up and have all that hard data 
available.
    Senator Inhofe. Do you agree with that?
    Mr. Bullock. Yes, I would largely concur with Governor 
Mead. And I think that in some respects, when it comes to some 
of these bigger issues, we are probably a little bit better on 
the ground, especially from the Governors' perspective as 
executives, because we have to. I mean, we can have theoretical 
discussions about sage-grouse and the Endangered Species Act, 
but at the end of the day we in Wyoming and other States, many 
other States did the same thing, did the hard work of bringing 
together from the petroleum industry to conservationists to 
everybody because we need to get this done. So we are both 
closer to the ground and we have to get work done.
    Senator Inhofe. Governor Bullock, you mentioned, along with 
the decision, the greater sage-grouse, that it doesn't warrant 
protection under the Endangered Species Act. Then right after 
that BLM comes in with its land program, which I think, if I 
look at this, talking about the buffer zones around there, 
could be even more serious than if they had determined a 
listing for the sage-grouse. What do you think?
    Mr. Bullock. Mr. Chair, I don't know that it would be more 
serious. In some respects it has been interesting hearing so 
many folks that it almost seems like they are upset that there 
wasn't a listing. In Montana, if I look at it, over 70 percent 
of the sage-grouse habitat is on private or State land, so less 
than a third of it, less than 30 percent, is BLM land. So by 
ensuring that this listing is not warranted, we are actually 
providing certainty in private property rights, in economic 
opportunities and other things, for those landowners in 
Montana.
    Now, I expressed my frustration with the BLM plan. Also, 
though, because we haven't been working on it for the 7 years 
that Wyoming has, also have gotten, from my perspective, I said 
as we are executing this plan, I expect to be able to have 
continuing conversations with the Bureau of Land Management to 
make certain that we are managing as a landscape, not depending 
on who actually owns the properties.
    Senator Inhofe. Mr. Chairman, I appreciate that. You know, 
Oklahoma is a farm State, and I have a hard time when I am 
around the State and people ask questions that we are 
protecting the burrowing beetle. You know, we can talk about 
grizzly bears, and, by the way, we have a real serious problem 
in Oklahoma: we don't have any. They are really in danger 
there.
    Mr. Mead. We have some we can loan you, Senator.
    [Laughter.]
    Senator Inhofe. But, you know, it is kind of hard to answer 
the questions why is it, when plowing our fields or if we are 
out exploring for oil, we are building roads, we have to build 
around these things because of the habitat of a beetle? So it 
is a frustrating thing, and I am hoping that you and I are 
going to be in a position to overhaul the system. We have 
talked about it for a long time. I think now it is time to do 
it. And you would be a big part of that, both of you.
    Thank you, Mr. Chairman.
    Senator Sullivan. Thank you, Senator Inhofe.
    Let me conclude with just a couple of questions. In my 
experience, this issue, ESA reform, is a very bipartisan issue. 
Unfortunately, none of our colleagues on the other side of the 
aisle made it to the hearing today, but whether it was our 
time, Governor Bullock, in the Western Association of AGs, or 
in the Western Governors' Association, is that your experience 
as well? Because what we are trying to do, and hopefully you 
are seeing the tone in this hearing, we are trying to get 
ideas, trying to be very bipartisan. You know, a lot of 
discussion on Director Ashe here. I think we certainly want to 
work with him on this. He knows that he and I have some not 
just small disagreements, some fundamental disagreements on 
some other issues, the 1002 area of ANWR and ANILCA and things 
like that.
    Don't worry, Director Ashe, we will get to other hearings 
on those important issues.
    But I do think it is important, even though you don't see 
any of our colleagues on the other side. This is not some kind 
of partisan issue that we are trying to hold a hearing on where 
there is no interest. In my experience, but I am really 
interested in yours, from your constituents, in working with 
Democrat and Republican Governors, what is your experience in 
terms of the bipartisan desire for reform here?
    Mr. Mead. Thank you, Mr. Chairman. I think if you look at 
the resolutions which we submitted as part of our testimony, 
you will see very strong bipartisan support on how we improve 
the Act, and our plan, so you know, Mr. Chairman, is by June of 
next year we will have some resolutions and some 
recommendations which hopefully will be of use to you as 
Chairman and to this committee. But it is not, and I think it 
is not just by chance that Governor Bullock and I are here 
together, because we have had the same frustrations. We have 
had some same success, and it is a bipartisan issue.
    And my goal is not, so you know, to say we don't need an 
Endangered Species Act.
    Senator Sullivan. Right. I don't think that is any of our 
goal.
    Mr. Mead. My goal is how do we improve it for the species, 
how do we improve it for our citizens, how do we improve it for 
industries and businesses. And I think there is ground to be 
had there, and in a bipartisan fashion we are going to come 
together, we are going to debate this and hopefully be of help 
to you, sir.
    Senator Sullivan. Great. I think that is a great plan 
moving forward.
    Let me just ask on two more specific issues. I did ask 
previously. You know, I know it is an idea that people just 
almost, out of hand, disregard. I certainly don't think it 
should be disregarded but, again, going back to the issue of 
State input, State involvement, State signoff. Again, we come 
from States where our fish and game agencies are some of the 
best not only in the country, but in the world, and we come 
from States where people care passionately about the species 
and protecting the species. But as you two know, being on the 
ground as Governors, you also see the balance of the issue of 
jobs and an economy, and wanting to make sure our kids can live 
and grow up in the States where we live and serve.
    So back to the two questions I had asked earlier. Do you 
think there would be support from a bipartisan group of 
Governors to have States be involved to the degree to which 
there needs to be a joint agreement between a Federal agency 
and the senior State executives on a listing or delisting?
    Mr. Mead. Mr. Chairman, I will speak now not as Chairman of 
the Western Governors', but just as Governor of Wyoming.
    Senator Sullivan. Right.
    Mr. Mead. Anything you can do to provide more opportunity 
for the States to play a bigger role in this I would be for. 
The challenge would be some of these species don't recognize 
State boundaries.
    Senator Sullivan. Correct.
    Mr. Mead. So I could say, Governor Bullock, I want this 
species listed, and Governor Bullock would say no. And Governor 
Otter would probably say no on anything.
    [Laughter.]
    Mr. Bullock. Inside joke.
    Mr. Mead. I am sorry, Mr. Chairman.
    Senator Sullivan. Just for the record, Governor Otter is 
not here to defend himself.
    Mr. Mead. No, he is not, but he can defend himself at 
another time.
    Governor Otter, the three of us, especially sharing 
Yellowstone, we may have different points of view. And while 
the three of us get along very well, the next Governors may, 
for whatever reason, not have the same sort of cooperative 
relationship, and then you get into the question who does that. 
So I do think you still, Mr. Chairman, have to have a system 
where the director says this is what we do.
    But I would say this: there is a lot of room for more State 
input. I would love to have the opportunity, and this is one of 
the considerations for the director to consider, is does the 
State say yes or no to this listing.
    Senator Sullivan. Right.
    Governor Bullock, do you have a thought?
    Mr. Bullock. No, I thought Governor Mead was well thought 
out. Active participation, active consultation. We do have 
challenges with boundaries. But I think it is something that we 
undertake sort of our exploration over the next year, because 
another thing about Western Governors is that we are not 
fearful of expressing where we think additional State 
sovereignty should be recognized, but it is something that we 
should put on our task list to say what can we come back and 
say could be meaningfully.
    Senator Sullivan. Well, I am in agreement with you on the 
issue of State involvement. In the instance of my State, there 
are a lot of times where we are not sharing borders with 
anybody but Canada, so there are instances certainly in Alaska 
where we are the only State impacted on decisions. I think 
there could be room in the reform, whether it is Alaska or 
other States where you are the only State impacted with the 
Federal Government that you could have some kind of co-
designation authority, and I think that is something that we 
certainly want to explore.
    Let me just ask a final question. You know, Governor Mead, 
you did a really good job of kind of laying out this issue of 
uncertainty that can come from listing and trying to create 
economic opportunities in your State, and how this uncertainty 
can really negatively impact your constituents and jobs. Do you 
think that there should be more directly listed in the ESA? 
Maybe not, as Director Ashe noted, directly with regard to the 
listing, but the way in which you deal in the aftermath of the 
listing that gives more focus on employment opportunity and 
jobs for our citizens?
    And, finally, is there anything else in the 2013 resolution 
that you have laid out from the Western Governors' Association 
that we have not covered here today that you think it is 
important for the record to make sure that you highlight before 
we adjourn?
    Mr. Mead. Thank you, Mr. Chairman, for the latter part of 
your question. I think what we have supplied is pretty good of 
where we are now. We hope to add to that until June of next 
year. Your question is a great one.
    Please restate. I am sorry, I totally lost the train of 
thought.
    Senator Sullivan. On the issue of more direct reference in 
the Federal statute as it relates to job opportunities, the 
economy, employment of our constituents.
    Mr. Mead. Yes. You know, my answer from my standpoint as 
Governor of Wyoming is I think that there should be. It is not 
scientific and probably not even something that should bother 
me, but as we have tried to delist wolves, I will get letters 
from people of, say, for example, Chicago, who will complain 
about I am not doing a good job managing my State. Well, I 
think we have better wildlife than most States. But we in the 
West refuse to be a zoo. We have to feed the citizens; they 
have to have jobs.
    And where we are now, it seems, with the Endangered Species 
Act, and you have heard this, I do not ascribe to it and I 
don't know of many people that do, but this notion of shoot, 
shovel, and shut up, which refers to if you see something, 
don't tell anybody, just deal with it. And that is very 
unfortunate because we should be at a point where, if you find 
a species that is threatened or endangered, that should be good 
news. And the way the system works, if it is always put on a 
few, a specific industry or a specific rancher or a specific 
community, they are never going to view the Endangered Species 
Act as good news. If there is a national interest, and there 
should be a national interest in protecting species, then you 
cannot put it all on one person or one State or a group of 
States. That is why I agree with Governor Bullock. If this is a 
priority, we have to put resources in it. We have to think of 
conservation.
    Every time a species is listed, it should be viewed as a 
failure. Every time there is a conservation necessary to help 
species, that should be viewed as a success. We have to get 
away from this is the worst news possible to have an endangered 
species. But the reason that is so, it is viewed by Rancher A 
and Business B as this is over. What my grandparents and great-
grandparents built is now over because this animal or this 
flower has been found. And we have to figure out how to get 
away from that so it is celebrated, we promote it, and 
everybody has a stake and vested interest in promoting species. 
That is where we need to go.
    Senator Sullivan. Very well said.
    Governor Bullock.
    Mr. Bullock. Very well said.
    Senator Sullivan. Great.
    Well, listen, gentlemen, thank you very much.
    Director Ashe, thank you for staying.
    This is going to be an important emphasis on this 
committee. I certainly hope that you and others can help 
convince our colleagues on the other side of the aisle that 
this is an important bipartisan reform: good for species, good 
for the economy, and good for the country. And we are going to 
work hard on that in the coming months.
    So I appreciate the outstanding testimony of the witnesses 
here. It is great having Governors in front of the Congress 
today.
    The hearing is adjourned.
    [Whereupon, at 3:54 p.m. the committee was adjourned.]

                                 [all]
</pre></body></html>
